SEMIANNUAL REPORT




  U.S. ELECTION ASSISTANCE
          COMMISSION,
     OFFICE OF INSPECTOR
             GENERAL




For the Period:
April 1, 2007, Through
September 30, 2007
                         U.S. ELECTION ASSISTANCE COMMISSION
                              OFFICE OF INSPECTOR GENERAL
                         1225 New York Ave. NW - Suite 1100
                                Washington, DC 20005


                                                            October 19, 2007


The Honorable Donetta Davidson
Chairwoman
U.S. Election Assistance Commission
1225 New York Avenue NW- Suite 1100
Washington, D.C. 20005


Dear Madam Chairwoman:


        The Inspector General Act of 1978 (Public Law 95-452), as amended,
calls for the preparation of semiannual reports to the Congress
summarizing the activities of the Office of Inspector General (OIG) for the
six-month periods ending each March 31 and September 30. I am pleased
to enclose the report for the period from April 1, 2007 to September30,
2007.


        The Inspector General’s report covers audits, investigations and
other reviews conducted by the OIG as well as audits conducted by
independent auditors. The report also indicates the status of management
decisions whether to implement or not to implement recommendations
made by the OIG.


        The Act requires that you transmit the report to the appropriate
committees of the Congress within 30 days of receipt, together with any
comments you may wish to make. Comments that you might offer should
be included in your management report that is required to be submitted
along with the Inspector General’s report. We will work closely with your
staff to assist in the preparation of the management report. The due date
for submission of both reports is November 30, 2007.
      I appreciate the continuing support we have received from the
Chair’s Office and your managers throughout the Commission. Working
together, I believe we have taken positive steps to improve Commission
programs and operations. We look forward to continuing these efforts.


                                          Sincerely,




                                          Curtis Crider
                                          Inspector General
Table of Contents

                                                  Page


Election Assistance Commission Profile             1


Office of Inspector General Operations             3

    Performance Audits                             3


    State Audits                                   4

    Investigations                                 9

    Other Activities                               9


Appendices:


   A. Reports Issued                              10
   B. Monetary Impact of Audit Activities         13
   C. Reports with Questioned Costs               14
   D. Reports with Potential Additional Program   15
      Funds
   E. Summary of Reports More Than 6 Months       16
      Old Pending Corrective Action At
      September 30, 2007
   F. Reporting Requirements of the Inspector     17
      General Act
EAC PROFILE

                        Congress established the Election Assistance
                        Commission (EAC) with the passage of the Help
                        America Vote Act (HAVA) in October 2002. EAC
                        became operational in fiscal year 2004.

Among EAC’s Key
Duties Are:             HAVA requires EAC’s to:

Instituting a program   Generate technical guidance on the
to test and certify
voting systems to       administration of federal elections.
standards developed
by EAC
                        Produce voluntary voting systems guidelines.
Administering the use
of $3 billion in
Federal payments and    Research and report on matters that affect the
grants                  administration of federal elections.
Researching various
Federal election
administration topics   Otherwise provide information and guidance
                        with respect to laws, procedures, and
                        technologies affecting the administration of
                        Federal elections.


                        Administer payments to States to meet HAVA
                        requirements.


                        Manage funds targeted to certain programs
                        designed to encourage youth participation in
                        elections.


                        Develop a national program for the testing,
                        certification, and decertification of voting
                        systems.




                                        1
Maintain the national mail voter registration form
that was developed in accordance with the
National Voter Registration Act of 1993 (NVRA),
report to Congress every two years on the impact
of the NVRA on the administration of federal
elections, and provide information to States on
their responsibilities under that law.


Audit organizations which received federal funds
authorized by HAVA from the General Services
Administration or the Election Assistance
Commission.


Submit an annual report to Congress describing
EAC activities for the previous fiscal year.




              2
OIG OPERATIONS

                        HAVA added the EAC to the list of designated
                        Federal entities covered by the Inspector General
The EAC OIG has one     Act (IG) of 1978 (Public Law 95-452, as amended).
permanent full-time     According to the IG Act, inspectors general:
position (the
Inspector General),
and one contract        Conduct and supervise internal reviews, audits and
auditor from the U.S.
Department of the       evaluations of agency programs and operations;
Interior, and a
contract with an
independent public      Provide leadership and coordination, and
accounting firm for     recommend actions to management, which: (1)
additional audit
support. The EAC OIG    promote economy, efficiency, and effectiveness in
obtains investigative   agency programs and operations; and (2) prevent
assistance under
reimbursable            and detect fraud, waste, abuse, and
agreements from
                        mismanagement of government resources; and
other Inspectors
General.
                        Keep the agency head, management, and the
                        Congress fully informed regarding problems and
                        deficiencies, and the progress of corrective action.


                        Performance Audits


Management of Travel    The audit found that travel was not
by the Election         performed in accordance with the Federal
Assistance
Commission              Travel Regulation. The audit identified
                        errors in 91 percent of the travel packages
                        (authorizations and vouchers) examined.
                        While the majority of the errors were minor,
                        such as claiming taxes as part of the lodging
                        rate, some were more significant, such as
                        traveling to a location that was not
                        authorized or claiming a lodging rate that
                        exceeded the authorized rate. Overall, the



                                      3
                    mistakes evidence a need for independent
                    controls and clear instructions on the
                    preparation and approval of authorizations
                    and vouchers, and for effective reviews of
                    the accuracy of the travel claims. We also
                    noted a need for procedures to ensure that
                    international travel is essential to the EAC
                    mission and that employees receive
                    compensatory time when traveling on their
                    own time.


                    Finally, we concluded that travel cards were
                    adequately controlled and used for official
                    purposes and that travelers generally paid
                    their travel card bills on time.


                    In its response to the draft report, the EAC
                    concurred with the findings and
                    recommendations. The response indicated that
                    the EAC administrative staff had begun
                    additional oversight of employee travel
                    authorizations and vouchers and had arranged
                    for additional training. In addition, the EAC
                    would draft internal policies and procedures to
                    address the issues raised in the report.

                    State Audits


Audits of the Use   Six audits of State use of HAVA funds were
of HAVA Funds by    completed during the six month period. The
States
                    objective of the audits was to determine whether
                    the States:


                    (1) managed HAVA funds in accordance with the




                                   4
                      Uniform Administrative Requirements for Grants
                      and Cooperative Agreements with State and Local
                      Governments (the Common Rule) and the Cost
                      Principles for State, Local, and Indian Tribal
                      Governments (Office of Management and Budget
                      Circular A-87) and


                      (2) complied with HAVA requirements for
                      maintaining the election fund and sustaining the
                      State’s level of expenditures for elections.


                      The audits found that:


                      OHIO generally administered HAVA funds in
The OIG completed
audits of Ohio, and   accordance with requirements. We also found that
Maryland
                      Ohio properly established the State election fund,
                      appropriated and deposited into the election fund
                      its matching monies, and sustained the
                      appropriate level of State expenditures for
                      elections. Ohio did not, however, deposit into the
                      election fund, as required by HAVA, interest earned
                      on the HAVA payments and on State matching
                      funds. Based on our inquiries, the Ohio legislature
                      instructed the Director of Ohio’s Office of Budget
                      and Management to deposit into the election fund
                      interest of $6.8 million earned on the HAVA funds.
                      We also found that Ohio needs to improve its
                      administrative procedures to minimize the time
                      between its advance and county expenditure of
                      HAVA funds.


                      In its response to the final report the EAC generally
                      concurred with the findings and recommendations.
                      Ohio has deposited the $6.8 million into the
                      election fund. The EAC has requested that Ohio



                                    5
                        provide copies of the procedures for subgrantee
                        fund distribution when they are completed.


                        MARYLAND properly established the State election
                        fund, sustained the appropriate level of State
                        expenditures for elections, and satisfied the 5
                        percent matching requirement for Section 251
                        funds. In addition, we found that Maryland needed
                        to adjust its annual financial reports for
                        expenditures of $250,554 that it reported under
                        both Sections 251 and 101, improve accounting
                        for HAVA-funded expenditures and equipment,
                        and submit a certification to EAC regarding its use
                        of a portion of its Section 251 funds for improving
                        the administration of elections for Federal office.

                        In its response to the final report the EAC generally
                        concurred with the findings and recommendations.
                        Maryland has submitted corrected financial repots
                        and has submitted the certification to the EAC
                        regarding the use of its Section 251 funds. The
                        EAC has requested that Maryland provide a plan of
                        action for correcting the remaining issues
                        identified in the report.

Clifton Gunderson LLP   VIRGINIA generally accounted for and expended
under contract with     HAVA funds in accordance with the HAVA
OIG completed audits
of Virginia, Indiana,   requirements and complied with the financial
Wyoming, and            management requirements established by the U.S.
Kentucky
                        Election Assistance Commission. Virginia also
                        complied with section 251 requirements.
                        However, Clifton Gunderson identified a need for
                        Virginia to improve its financial reporting and
                        property controls.




                                       6
In its response to the final report, the EAC
concurred with the findings and
recommendations. Based on the corrective
actions taken by Virginia, the recommendations
are considered implemented.

INDIANA generally accounted for HAVA funds in
accordance with requirements. However, Clifton
Gunderson identified a need for Indiana to improve
its financial reporting and accounting of HAVA
funds. The financial reports submitted by Indiana
did not contain all of the required information or
included correct information. In addition, Indiana
did not deposit interest earned on HAVA funds
until April of 2006 resulting in an understatement
of HAVA accounts by $2,083,036. In addition
Indiana miscalculated its matching fund
requirements for Section 251 payments. As a
result, Indiana owed the election fund $129,919.
In addition, one county needed to improve its
security over voting equipment.


In its response to the final report, the EAC
generally concurred with the findings and
recommendations. Indiana has corrected its
financial reports and submitted revised financial
reports to the EAC. The EAC has directed Indiana
to deposit the lost interest and the additional
matching funds into the election fund. The Indiana
must provide the EAC with how it will, ensure that
counties comply with Federal requirements for the
accounting and control of property purchased with
federal funds.




                 7
WYOMING generally accounted for and expended
HAVA funds in accordance with requirements.
However, Clifton Gunderson identified an issue
with equipment cost allocations. Wyoming
purchased two desktop computers and one server
for each county, and other equipment for election
headquarters to be used for voter registration at a
net cost of $173,322. Title to the computers rests
with the state; however, state officials gave
permission to the staff at both state and county
offices to use the equipment for daily non-HAVA
activities. The state did not put procedures in
place to allocate the costs of the equipment
between the HAVA and non-HAVA related
activities, and to reimburse the election fund for
the non-HAVA portion of the cost of the
equipment.


Wyoming does not believe that it should be
required to allocate the cost of the equipment. The
EAC is in the process of resolving the issue with
Wyoming.


KENTUCKY generally accounted for and expended
HAVA funds in accordance with the HAVA
requirements and complied with the financial
management requirements established by the U.S.
Election Assistance Commission. However, Clifton
Gunderson’s audit identified a need for Kentucky
to provide for its shortfall in state matching funds
and to demonstrate how it complied with the
maintenance of effort requirements.


Kentucky agreed with the report’s finding and
recommendation related to the provision of



              8
additional state matching funds and related
interest earnings. The state has deposited
$159,579 into the election fund.


However, Kentucky disagreed with the finding that
they had not met the maintenance of effort
requirement. The EAC is in process of resolving
the maintenance of effort issue with Kentucky.


Investigations


The OIG opened two investigations during the six-
month period.


Other Activities


The IG Act requires reporting on other categories.
We are reporting no actions in the following
categories:


   •   Reviews of Legislation, Rules, Regulations
       and Other Issuances


   •   Matters Referred to Prosecuting Authorities


   •   Denial of Access to Records


   •   Significant Revised Management Decisions
       Made During the Period


   •   Significant Management Decisions with
       Which the Inspector General Disagrees




              9
                                                       APPENDIX A
Reports Issued


Performance      Improvements Needed in Management of Travel by

Reports          the Election Assistance Commission ( Assignment
                 No. I-PA-EAC-01-06), July 2007


Other            Preliminary Assessment of EAC’s Compliance with
                 the Requirements of the Federal Information
                 Security Management Act (Assignment No. I-EV-
                 EAC-01-07A), August 2007


Evaluations      None


External         1. Administration of Payments Received Under the

Reports          Help America Vote Act by the Ohio Secretary of
                 State (Assignment No. E-HP-OH-09-06),
                 May 2007


                 2. Administration of Payments Received Under the
                 Help America Vote Act by the Commonwealth of
                 Virginia Sate Board of Elections (Assignment No. E-
                 HP-VA-12-06), May 2007


                 3. Administration of Payments Received Under the
                 Help America Vote Act by the State of Indiana
                 Election Division (Assignment No. E-HP-IN-13-06),
                 May 2007


                 4. Administration of Help America Vote Act Funds
                 by the Maryland State Board of Elections
                 (Assignment No. E-HP-MD-08-06), June 2007




                               10
                 5. Administration of Payments Received Under the
                 Help America Vote Act by the Wyoming Secretary of
                 State Elections Division (Assignment No. E-HP-WY-
                 03-07), August 2007


                 6. Administration of Payments Received Under the
                 Help America Vote Act by the Commonwealth of
                 Kentucky Sate Board of Elections (Assignment No.
                 E-HP-KY-02-07), August 2007


State Audit      1. State of Delaware Single Audit for the Year Ended

Reports          June 30, 2006 (Assignment No. E-SA-DE-09-07),
                 May 2007
Referred to
EAC for Action   2. State of Florida Single Audit Report for the Fiscal
                 Year Ended June 30, 2006 (Assignment No. E-SA-
                 FL-11-07), May 2007


                 3. State of Indiana Single Audit Report, July 1, 2005
                 to June 30, 2006 (Assignment No. E-SA-IN-17-07),
                 May 2007


                 4. State of Iowa Single Audit Report for the Year
                 Ended June 30, 2006 (Assignment No. E-SA-IA-18-
                 07), May 2007


                 5. State of Maryland Single Audit Report for the Year
                 Ended June 30, 2006 (Assignment No. E-SA-MD-
                 23-07), May 2007


                 6. State of Nebraska Statewide Single Audit for the
                 Year Ended June 30, 2006 (Assignment No. E-SA-
                 NE-30-07), May 2007




                                 11
7. State of North Carolina Single Audit Report for
the Year Ended June 30, 2006 (Assignment No. E-
SA-NC-36-07), May 2007


8. State of South Carolina Statewide Single Audit for
the Year Ended June 30, 2006 (Assignment No. E-
SA-SC-44-07), May 2007


9. Commonwealth of Virginia Single Audit for the
Year Ended June 30, 2006 (Assignment No. E-SA-
VA-50-07), May 2007


10. State of West Virginia Single Audit for the Year
Ended June 30, 2006 (Assignment No. E-SA-WV-
53-07), May 2007


11. State of Wisconsin Single Audit Report for the
Year Ended June 30, 2006 (Assignment No. E-SA-
WI-54-07), May 2007


12. State of Pennsylvania Single Audit for the Year
Ended June 30, 2006 (Assignment No. E-SA-PA-41-
07), July 2007


13. State of Ohio Single Audit Report for the Year
Ended June 30, 2006 (Assignment No. E-SA-OH-
38-07), September 2007


14. State of New Jersey Single Audit for the Year
Ended June 30, 2006 (Assignment No. E-SA-NJ-33-
07), September 2007


15. State of Illinois Single Audit Report for the Year
Ended June 30, 2006 (Assignment No. E-SA-IL-16-
07), September 2007




                 12
                                                                      APPENDIX B
Monetary Impact Of Audit Activities*


Questioned Costs                                        $      424,751


Potential Additional Program Funds                           9,183,996


Funds be Put to Better Use                                  _____ 0   __


Total                                                   $9,608,747

* Unsupported costs are included in questioned costs.




                                          13
                                                                     APPENDIX C
Reports With Questioned Costs*
                                                       Questioned   Unsupported
            Category                 Number              Costs         Costs

A. For which no
management decision had
been made by the
beginning of the reporting
period.                                  2              $655,019      $562,513

B. Which were issued during
the reporting period.                    3              $424,751         $0

Subtotals (A+B)                          5             $1,079,770     $562,513

C. For which a management
decision was made during the
reporting period.                        4              $906,448      $562,513

  (i) Dollar value of
recommendations that were
agreed to by management.                                $250,554         0

  (ii) Dollar value of
recommendations not agreed
to by management.                                       $655,894      $562,513

D. For which no
management decision has
been made by the end of the
reporting period.                        1              $173,322         $0

E. Reports for which no
management decision was
made within 6 months of
issuance.                                0                 0             0
* Unsupported costs are included in questioned costs



                                             14
                                                     APPENDIX D
Reports With Potential Additional Program Funds

             Category                     Number   Dollar Value


A. For which no management
decision had been made by the
beginning of the reporting period.           1        $114,794


B. Which were issued during the
reporting period.                            3      $9,183,996


Subtotals (A+B)                              4      $9,298,790


C. For which a management decision
was made during the reporting
period.                                      4      $9,298,790


 (i) Dollar value of
recommendations that were agreed
to by management.                                   $9,298,790


 (ii) Dollar value of
recommendations that were not
agreed to by management.                                      0


D. For which no management
decision has been made by the end
of the reporting period.                    0                 0


E. Reports for which no
management decision was made
within six months of issuance.              0                 0




                                     15
                                                                        Appendix E
      Summary of Reports More Than 6 Months Old Pending
              Corrective Action At September 30, 2007

This is a listing of performance, evaluation and reports on the states use of
HAVA funds that more than 6 months with management decisions for which
corrective action has not been completed. It provides report number, title, issue
date, and the number of recommendations without final corrective action.


E-HP-NJ-04-06      Administration of Payments Received Under the Help America
                   Vote Act by the Office of the Attorney General, New Jersey
                   Department of Law and Public Safety, September 2006,
                   9 Recommendations


E-HP-TX-06-06      Administration of Payments Received Under the Help America
                   Vote Act by the Texas Secretary of State, October 2006,
                   2 Recommendations


 E-HP-IL-07-06     Administration of Payments Received Under the Help America
                   Vote Act by the Illinois State Board of Elections,
                   October 2006, 8 Recommendations


E-HP-PA-10-06      Administration of Payments Received Under the Help America
                   Vote Act by the Secretary of the Commonwealth of
                   Pennsylvania, January 2007, 2 Recommendations


E-HP-SC-11-06      Administration of Payments Received Under the Help America
                   Vote Act by the South Carolina Election Commission,
                   January 2007, 4 Recommendations




                                      16
                                                                     APPENDIX F
Reporting Requirements of the IG Act

Section of Act                      Requirement                           Page

Section 4(a)(2)    Review of Legislation and Regulations                  None

Section 5(a)(1)    Significant Problems, Abuses, and Deficiencies         None

Section 5(a)(2)    Recommendations for Corrective Action With             None
                   Respect to Significant Problems, Abuses, and
                   Deficiencies

Section 5(a)(3)    Significant Recommendations From Agency’s
                   Previous Report on Which Corrective Action Has
                   Not Been Completed

Section 5(a)(4)    Matters Referred to Prosecutive Authorities and        None
                   Resulting Convictions

Section 5(a)(5)    Matters Reported to the Head of the Agency             None

Section 5(a)(6)    List of Reports Issued During the Reporting
                   Period                                                  10

Section 5(a)(7)    Summary of Significant Reports                           3

Section 5(a)(8)    Statistical Table – Questioned Costs                    14

Section 5(a)(9)    Statistical Table – Recommendations That Funds         None
                   Be Put to Better Use

Section 5(a)(10)   Summary of Audit Reports Issued Before the             None
                   Commencement of the Reporting Period for
                   Which No Management Decision Has Been Made

Section 5(a)(11)   Significant Revised Management Decisions Made          None
                   During the Reporting Period

Section 5(a)(12)   Significant Management Decisions With Which            None
                   the Inspector General Is in Disagreement

Section 5(a)(13)   Information Described Under Section 05(b) of           None
                   the Federal Financial Management Improvement
                   Act of 1996




                                     17
                           The OIG audit mission is to provide timely, high-quality
                           professional products and services that are useful to OIG’s
                           clients. OIG seeks to provide value through its work, which is
                           designed to enhance the economy, efficiency, and effectiveness
                           in EAC operations so they work better and cost less in the
                           context of today's declining resources. OIG also seeks to detect
OIG’s Mission              and prevent fraud, waste, abuse, and mismanagement in these
                           programs and operations. Products and services include
                           traditional financial and performance audits, contract and grant
                           audits, information systems audits, and evaluations.


                           Copies of OIG reports can be requested by e-mail.
                           (eacoig@eac.gov).


                           Mail orders should be sent to:

Obtaining
                           U.S. Election Assistance Commission
Copies of
                           Office of Inspector General
OIG Reports                1225 New York Ave. NW - Suite 1100
                           Washington, DC 20005


                           To order by phone: Voice:     (202) 566-3100
                                                 Fax:    (202) 566-0957


                           By Mail: U.S. Election Assistance Commission
                                     Office of Inspector General
To Report Fraud, Waste               1225 New York Ave. NW - Suite 1100
and Abuse Involving the              Washington, DC 20005
U.S. Election Assistance
                           E-mail:   eacoig@eac.gov
Commission or Help
America Vote Act Funds
                           OIG Hotline: 866-552-0004 (toll free)


                           FAX: 202-566-0957
